0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition for Respondents
Longnecker Properties, Inc. and Seabright Insurance
Company in 20-1013, Clarence J. Simon, Jr. v.
Director, Office of Workers' Compensation Programs,
United States Department of Labor, Longnecker
Properties, Inc., and SeaBright Insurance Company,
was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day and e-mail
service to the following parties listed below, this 24th
day of March, 2021:
Louis R Koerner Jr.
Koerner Law Firm
1204 Jackson Ave
New Orleans, LA 70130
(504) 405-1411
koerner@koerner-la w .com
Counsel for Petitioner
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
Director, Office of Workers' Compensation Programs,
United States Department of Labor

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Henry H. LeBas
Counsel of Record
LeBas Law Offices APLC
2 Flagg Place, Suite 1
Lafayette, LA 70508
337-236-5500
hle bas@le baslaw .com

Counsel for Respondents,
Longnecker Properties, Inc. and
SeaBright Insurance Company

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 24, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

d'rLa.{..~ J q

Notary Pu~
[seal]

<J.

1

c)Dd /

~

